No. 21-81

In the Supreme Court of the United States
__________________
BURT W. NEWSOME AND NEWSOME LAW, LLC,
Petitioners,
v.
CLARK ANDREW COOPER; BALCH & BINGHAM, LLP;
JOHN W. BULLOCK, JR.; CLAIBORNE PORTER SEIER;
AND DON GOTTIER,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Supreme Court of Alabama

__________________
MOTION SEEKING LEAVE TO FILE AMICUS CURIAE
BRIEF AND BRIEF OF CHURCH OF LUKUMI BABALU
AYE, INC., AMICUS CURIAE
IN SUPPORT OF PETITIONERS
__________________
DAVID CLIFFORD HOLLAND, Esq.
Counsel of Record
Bar ID#313361
LAW OFFICES OF DAVID CLIFFORD
HOLLAND, P.C.
201 East 28th Street - Suite 2R
New York, New York 10016
212-842-2480 Office
DCH@HollandLitigation.com
Counsel for Amicus Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
RULE 37.2 MOTION SEEKING LEAVE TO FILE
AMICUS CURIAE BRIEF
The Church of Lukumi Babalu Aye, Inc., (“amicus”),
hereby moves, pursuant to S. Ct. R. 37.2 for leave to
file a brief amicus curiae in support of the petition for
a writ of certiorari to the Supreme Court of the United
States. Amicus is filing this motion for leave because
we have been unable to secure consent from
Respondents.1 A copy of the proposed brief is attached
hereto.
As more fully explained at the outset of the attached
brief, Amicus is a not-for-profit church formed under
the laws of the State of Florida. The Church and its
congregants were the subject of a prior ruling from this
Court in the matter known as, The Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520 (1993). Amicus is committed to the freedom of
expression and free exercise of religion. It actively
advocates for those individuals and entities which have
faced significant Due Process violations in their
dealings with municipal and other governmental
entities, as well as rulings obtained from the legal
system. Petitioners appear to have been so harmed by
the rulings of the Supreme Court of Alabama and the
lower courts in that state all of which have resulted in
a significant deprivation of Due Process rights when
those courts failed to observe the mandates of Rule
58(c) of the Alabama Rules of Civil Procedure.

1

Consent was sought from Counsel for all parties, but only
Petitioner’s Counsel responded affirmatively consenting to the
filing of this Amicus Curiae brief.

ii
This brief should assist the Court’s assessment of
whether to grant certiorari. Amicus sets forth how the
Circuit Courts of both Shelby and Jefferson Counties,
as well as the Supreme Court of Alabama abandoned
Rule 58(c)’s requirement that all rendered Orders be
uploaded to the State Judicial Information System
(“SJIS”) so that proper notice is provided and Due
Process reserved for taking an appeal from a final
Order. Instead, those Circuit Courts and the Supreme
Court relied upon, adopted, and effectively ratified an
undocketed Order by declaring it an “implicit” Order,
from which all appellate rulings at issue in this matter
were subsequently based. By legitimizing the “implicit”
Order which otherwise violated the proscriptions of
Rule 58(c), a cascading onslaught of Due Process
violations occurred causing the expungement order of
the Shelby County Circuit Court to be overturned, the
Dismissal and Release Agreement to be reinstated,
cloaking unintended and unidentified third parties
with the protections of that Agreement, and the
imposition of substantial legal fees all without having
a properly docketed final Order from which all the
state court appeals could be taken.
Those state court rulings issued with conscious
disregard for Rule 58(c) of the Alabama Rule of Civil
Procedure should be overturned and Petitioner
Newsome’s properly docketed expungement order,
which remains on file today, properly recognized by the
Supreme Court of Alabama and lower Circuit Courts.
Correspondingly, the Dismissal and Release Agreement
should be declared a nullity as a record expunged by
operation of law in accordance with the Shelby County

iii
Circuit Court expungement order docketed as required
in the SJIS system.
The Church of Lukumi Babalu Aye, Inc., has no
vested interest in the outcome of this matter. It merely
seeks to fulfill its mission to advocate for those
individuals and entities which have suffered significant
constitutional violations at the hand of municipal
entities and Courts which have upheld those actions
which negatively impact upon the lives and business
interests of the aggrieved parties.
Amicus hopes to make this Court aware of what it
believes are the broad implications and Due Process
impingement that the rulings from the Shelby and
Jefferson Circuit Courts and Supreme Court of
Alabama have had as a result of abdicating their duty
to impose the docketing mandate of Rule 58(c) of the
Alabama Rules of Civil Procedure.
Accordingly, Amicus respectfully requests that the
Court grant leave to file the attached brief as amicus
curiae.
Respectfully submitted,
DAVID CLIFFORD HOLLAND, Esq.
Counsel of Record
Bar ID#313361
LAW OFFICES OF DAVID CLIFFORD
HOLLAND, P.C.
201 East 28th Street - Suite 2R
New York, New York 10016
212-842-2480 Office
DCH@HollandLitigation.com

iv
TABLE OF CONTENTS
RULE 37.2 MOTION SEEKING LEAVE TO FILE
AMICUS CURIAE BRIEF . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
BRIEF OF CHURCH OF LUKUMI BABALU INC.,
AS AMICUS CURIAE IN SUPPORT OF
PETITIONERS . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CORPORATE DISCLOSURE . . . . . . . . . . . . . . . . . . 2
RELEVANT CONSTITUTIONAL PROVISIONS . . 2
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

v
TABLE OF AUTHORITIES
CASE
The Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah,
508 U.S. 520 (1993). . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTION
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 7
RULE
Ala. R. Civ. P. 58(c) . . . . . . . . . . . . . . . . . . . . . . . . 5, 6
OTHER AUTHORITIES
https://en.wikipedia.org/wiki/For_Want_of_a_Nail. . . . 3
Poor Richard’s Almanack, 1789. . . . . . . . . . . . . . . . . 3

1
INTEREST AND BRIEF OF CHURCH OF
LUKUMI BABALU INC., AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS
The Church of the Lukumi Babalu Aye, Inc. (“The
Church”), is a not-for-profit corporation organized
under Florida law in 1973.1 The Church and its
congregants were the subject of a favorable prior ruling
from this Court in the matter known as, The Church of
the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508
U.S. 520 (1993).
The Church is committed to the freedom of
expression and exercise of religion. It actively
advocates for those individuals and entities which have
been denied significant Due Process in their dealings
with municipal and governmental entities as well as
Courts in the jurisdictions where they reside.
Petitioners have been harmed by the rulings of the
Circuit Courts in Shelby and Jefferson Counties which
were ratified by the Supreme Court of Alabama. Their
injury stems from the simple abdication of those Courts
from enforcing the requirements of Rule 58(c) that all
Orders be uploaded and docketed with the SJIS
system. Abidance by that Rule makes an Order official,
final, and appealable. Because all the appellate courts
of Alabama relied upon an undocketed “implicit” order

1

No counsel for a party authored any part of this brief. And no one
other than the amicus curiae, its members, or its counsel financed
the preparation or submission of this brief. The parties received
timely notice of the filing of this brief. Consent was sought from
Counsel for all parties, but only Petitioner’s Counsel responded
affirmatively consenting to the filing of this Amicus Curiae brief.

2
which was not entered into the SJIS system as
required by Rule 58(c), it would appear that there was
no valid final Order from which an appeal could be
taken. Lacking a valid final and appealable Order in
the SJIS system, the appellate rulings and
ramifications thereof which overturned the Trial
Court’s expungement order and vacation of the
Dismissal and Release Agreement appear to be unripe
and devoid of critical Due Process protections
guaranteed under the Fourteenth Amendment to the
United States Constitution.
The Church of Lukumi Babalu Aye, Inc., submits
this Amicus Curiae brief in support of the Petition for
a Writ of Certiorari.
CORPORATE DISCLOSURE
Pursuant to Rule 29.6 of this Court, The Church of
Lukumi Babalu Aye, Inc., is a non-profit organization
which has no parent corporations and no publicly-held
corporation owns any stock in those entities.
RELEVANT CONSTITUTIONAL PROVISIONS
The Fourteenth Amendment of the United States
Constitution provides in relevant part:
‘All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of

3
life, liberty, or property, without due process of
law, nor deny to any person within its
jurisdiction the equal protection of the laws.’
U.S. Const. amend. XIV.
SUMMARY OF THE ARGUMENT
The confounding procedural history of the state
court proceedings are reminiscent of the old poem most
often attributed to Benjamin Franklin, entitled: “For
The Want Of A Horseshoe Nail”. That poem analyzes
a sequence of simple events in a mythical wartime
supply chain to deduce how a simple failure can lead to
widescale catastrophic results. It reads:
“For the want of a nail the shoe was lost,
For the want of a shoe the horse was lost,
For the want of a horse the rider was lost,
For the want of a rider the battle was lost,
For the want of a battle the kingdom was lost,
And all for the want of a horseshoe-nail.”
Poor Richard’s Almanack, 1789;
See also, https://en.wikipedia.org/wiki/For_Want_
of_a_Nail
As discussed below, that insightful lesson about the
cascading impact of a simple failure of operations is
adaptable to the instant matter. The procedural history
and resulting harms caused by the successive courts
failures to abide by Rule 58(c) demonstrate the vast
magnitude of Due Process violations that resulted - all
for the want of observance of the SJIS docketing
requirement under the Alabama Rules of Civil
Procedure.

4
Applied here, that causality chain and cascading
impact of constitutional impingement goes something
like this:
For the want of a docketed SJIS Order, the
expungement order was improperly lost,
For want of the expungement order, the D&R
agreement releasing remote third parties was
reinstated,
For want of abidance to Rule 58(c), an
undocketed Order was drafted, but not filed,
For want of filing, the undocketed Order was
void and appeals could not be properly taken,
For want of proper appeals, the subsequent
rulings from the Circuit Courts of Shelby and
Jefferson Counties, as well as the Supreme
Court of Alabama were flawed and Due Process
was lost,
All for the want of compliance with Rule 58(c) of
the Alabama Rules of Civil Procedure.
This Court should grant Certiorari to redress the
Due Process violations caused by abdication of the
Circuit Courts of Shelby and Jefferson Counties, as
well as the Supreme Court of Alabama, to follow the
mandate of Rule 58(c) of the Alabama Rules of Civil
Procedure.
ARGUMENT
Rule 58 of the Alabama Rules of Civil Procedure
mandates the procedures by which a court order is

5
rendered and docketed. More specifically, a Judge may
render an order or judgment by:
(1) separate written document,
(2) by including the order or judgment in a
judicial opinion,
(3) by endorsing upon a motion the words
“granted,” “denied,” “moot,” or words of similar
import, and dating and signing or initialing it,
(4) by making or causing to be made a
notation in the court records, or
(5) by executing and transmitting an
electronic document to the electronic-filing
system. Ala. R. Civ. P. 58(a).
Once rendered, that order or judgment rendered
must then be docketed in the following manner:
“Upon rendition of an order or a judgment as
provided in subdivision (a)(1-4) of this rule, the
clerk shall forthwith enter such order or
judgment in the court record. An order or a
judgment shall be deemed “entered” within
the meaning of these Rules and the Rules
of Appellate Procedure as of the actual
date of the input of the order or judgment
into the State Judicial Information System.
An order or a judgment rendered electronically
by the judge under subdivision (a)(5) of this rule
shall be deemed “entered” within the meaning of
these Rules and the Rules of Appellate
Procedure as of the date the order or judgment
is electronically transmitted by the judge to the
electronic-filing system. The entry of the
judgment or order shall not be delayed for the

6
taxing of costs. Interest upon a judgment runs
from the date the court renders the judgment.”
Ala. R. Civ. P. 58(c). [Emphasis Added].
It is clear from Rule 58(c) that the uploading of an
Order or Judgment to the SJIS system is required to
provide both public notice of it and the imprinting of
the Clerk’s electronic time stamp upon it to officially
commence the time periods in which appellate or other
action must be taken with regard to it. That rule
provides consistency in Court proceedings and ensures
the finality of orders so that appeals may be properly
taken. That Rule is very similar to the purposes of Rule
58 of the Federal Rules of Civil Procedure to ensure
notice to the parties that an Order or Judgment has
become “official” and the ability to take timely appeal
from it thereafter.
The protracted procedural history of the instant
matter in the Alabama state courts makes clear what
results when the docketing requirement of Rule 58(c)
is abandoned.
Petitioner Newsome litigated and obtained an
expungement order from the Circuit Court, Shelby
County. See, Record on Appeal, Pg. 105. That Order
was docketed in the SJIS system and effectively caused
all of the records from Mr. Newsome’s arrest and
prosecution to be expunged from his record. The Judge
who issued that Order in the system at the Circuit
Court, Shelby County, Alabama, retired soon
thereafter. See, Record on Appeal, Pg. 118. As a direct
consequence of the expungement order, the Dismissal
and Release Agreement was also vitiated as it was

7
derivative of the then expunged criminal records and
proceeding. See, Record on Appeal, Pgs. 10-11; 110-118.
As such, the D&R agreement became a nullity and
whatever restrictions against Petitioners filing civil or
criminal claims against ascertainable and unknown
third party private citizens who were directly or
indirectly related to the criminal case were no longer
applicable. Id. That SJIS docketed expungement order
was the subject of extensive subsequent litigation. Id.
Motion and litigation practice continued and that
expungement order previously docketed in the SJIS
system was supplanted by a subsequent ruling
reversing the expungement order which consequently
reinstated the prohibitions on civil actions contained in
the D&R Agreement. See, Record on Appeal, Pg. 116.
However, that reversal order was never docketed in the
SJIS system as required by Rule 58(c). See, Record on
Appeal, Pg. 25.
A non-docketed order should not be deemed final
and appealable until such time that it is entered into
the SJIS system in accordance with Rule 58(c). But,
the lack of compliance with Rule 58 was not deemed to
be a barrier to several subsequent appeals which
wended their way through the Circuit Courts of Shelby
and Jefferson Counties, as well as the Supreme Court
of Alabama. See, Record on Appeal, Pgs 25; 110-118. On
June 8, 2016, the Supreme Court ordered that the
previously undocketed order reversing the
expungement order be entered into the SJIS system.
See, Record on Appeal, Pg. 126.
The Supreme Court of Alabama sidestepped the
failure to abide by Rule 58(c) and instead found that

8
there was an “implicit” order which overturned the
expungement order which was valid and binding even
if not docketed in the SJIS system. See, Record on
Appeal, Pgs. 5-45.
By so ratifying that defalcation of the Alabama
Rules of Procedure, the Supreme Court countenanced
and sanctioned the fact that several appeals of
significant constitutional magnitude, including the
imposition of substantial attorneys fees, were
permissible even if the single order which set the
cascading violations in motion was not final or ripe for
an appeal. This error was not de minimis – it was
catastrophic – all for the want of abidance of the
docketing requirements set forth in Rule 58(c) of the
Alabama Rules of Civil Procedure.
This Court should reverse the Supreme Court of
Alabama and remand the matter back to state court
with instruction to abide by the last order properly
docketed with SJIS in accordance with Rule 58 - the
Order granting expungement to Petitioner Newsome
and vacation of the Dismissal and Release Agreement.

9
CONCLUSION
By grant of Certiorari this Court can undo the
injustices inflicted upon Petitioners by the Supreme
Court of the State of Alabama when it abdicated its
duty to uphold Rule 58 of the Alabama Rules of Civil
Procedure and instead opted to approve the Due
Process violations engaged in by the lower courts.
Respectfully Submitted,
DAVID CLIFFORD HOLLAND, Esq.
Counsel of Record
Bar ID#313361
LAW OFFICES OF DAVID CLIFFORD
HOLLAND, P.C.
201 East 28th Street - Suite 2R
New York, New York 10016
212-842-2480 Office
DCH@HollandLitigation.com

